No.
IN THE
Supreme Court of the United States
WASTECARE CORPORATION
Petitioner,
v.
HARMONY ENTERPRISES, INC.
Respondent,
On Appeal from The United States Court of Appeals for
the Eleventh Circuit
Case No. 19-12066
_______________________________________
Wastecare Corporation’s Petition for Writ of
Certiorari to the United States Court of Appeals for
the Eleventh Circuit
_______________________________________
PETITION FOR WRIT OF CERTIORARI
Leslie L. Pescia*
ASB-0224-U14E
BEASLEY, ALLEN, CROW,
METHVIN, PORTIS
& MILES, P.C.
218 Commerce Street
Montgomery, AL 36104
Tel: (334) 269-2343
Fax: (334) 954-7555
leslie.pescia@beasleyallen.com

James T. Sasser, Esq.
ATTORNEY AT LAW
Montgomery HWY,
Suite 104
Birmingham, AL 35216
jtsasserlaw@gmail.com

Counsel for Petitioner WasteCare Corporation
*Counsel of Record

QUESTIONS PRESENTED FOR REVIEW
Whether an arbitration agreement that expressly
carves out specific claims to be exempt from the provision
clearly and unmistakably delegates arbitrability of those
claims to the arbitrator by identifying arbitration rules for
arbitrable claims.

i

LIST OF PARTIES AND RELATED CASES
All Parties to this action are identified in the case
caption.


Wastecare Corporation v. Harmony Enterprises, Inc., No.
2:18-cv-00120-RWS, U.S. District Court for the Northern
District of Georgia, Gainesville Division. Judgment
entered May 8, 2019.



Wastecare Corporation v. Harmony Enterprises, Inc., No.
19-12066-EE, United States Supreme Court for the
Eleventh Circuit. Judgment entered July 23, 2020.

ii

CORPORATE DISCLOSURE STATEMENT
Pursuant to Rule 29.6 of this Court’s Rules,
petitioner Wastecare Corporation states that it has no
parent company, and no publicly held corporation owns
10% or more of its stock.

iii

TABLE OF CONTENTS
QUESTIONS PRESENTED FOR REVIEW ...................i
LIST OF PARTIES AND RELATED CASES .............. ii
CORPORATE DISCLOSURE STATEMENT ............. iii
TABLE OF AUTHORITIES............................................. v
PETITION FOR WRIT OF CERTIORARI.................... 2
OPINIONS AND ORDERS BELOW .............................. 2
STATEMENT OF JURISDICTION ................................ 2
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED .............................................. 3
STATEMENT OF THE CASE ......................................... 3
REASONS FOR GRANTING THE WRIT ..................... 8
A.
This case concerns an important and
recurring question of law that remains
unresolved and in conflict among the circuit
courts............................................................................... 8
B.
The Eleventh Circuit’s Decision is
fundamentally flawed and contravenes this
Court’s jurisprudence. ............................................... 13
APPENDIX……………………………………………………1a
APPENDIX A, Court of Appeals Decision ........... 1a
APPENDIX B, District Court Decision ..............13a
APPENDIX C, Denial of Rehearing .................... 16a
APPENDIX D, Amended Complaint ................... 17a

iv

TABLE OF AUTHORITIES
Cases
Archer & White Sales, Inc. v. Henry Schein, Inc., 935 F.3d
274, 281–82 (5th Cir. 2019) ................................................. 8
AT&T Technologies, Inc. v. Communications Workers, 475
U.S. 643, 649 (1986) ...................................................... 7, 10
Caley v. Gulfstream Aero. Corp., 428 F.3d 1359, 1370 (11th
Cir. 2005) ........................................................................... 12
Dean Witter Reynolds, Inc. v. Byrd, 470 U.S. 213, 218 (1985)
............................................................................................ 12
Elzinga & Volkers, Inc. v. LSSC Corp., 838 F. Supp. 1306,
1309 (N.D. Ind. 1993) ........................................................ 12
First Options of Chi., Inc. v. Kaplan, 514 U.S. 938, 944
(1995) ......................................................................... 6, 7, 10
First Options of Chicago, Inc. v. Kaplan, 514 U.S. 938, 948
(1995) ................................................................................. 10
Freeman v. Freyer ........................................................... 12, 13
Henry Schein, Inc. v. Archer & White Sales, Inc., --- S.Ct. ---, 2020 WL 3146679 (Mem); 207 L. Ed. 2d 1050 (June 15,
2020)................................................................................... 11
Henry Schein, Inc. v. Archer & White Sales, Inc., 139 S. Ct.
524, 529 (2019) .......................................................... 8, 9, 11
Mastrobuono v. Shearson Lehman Hutton, Inc., 514 U.S. 52,
62-63 (1995) ......................................................................... 6
Microtunneling v. Walsh Const. Co. of Illinois, 747 N.E 2d
410, 417 (Ill. App. Ct. 2001) .............................................. 13
NASDAQ OMX Grp., Inc. v. UBS Sec., LLC, 770 F.3d 1010
(2d Cir. 2014) ....................................................................... 7
Oracle Am., Inc. v. Myriad Group A.G., 724 F.3d 1069 (9th
Cir. 2013) ......................................................................... 8, 9
Wastecare Corporation v. Harmony Enterprises, Inc., No.
19-12066-EE ........................................................................ii
Wastecare Corporation v. Harmony Enterprises, Inc., No.
2:18-cv-00120-RWS .............................................................ii
We Care Hair Dev., Inc. v. Engen, 180 F.3d 838, 844 (7th
Cir. 1999) ........................................................................... 12

v

Statutes
28 U.S.C. §1254(1) .................................................................. 2
9 U.S.C. 2 ................................................................................ 2

vi

No.
IN THE
Supreme Court of the United States
WASTECARE CORPORATION
Petitioner,
v.
HARMONY ENTERPRISES, INC.
Respondent,
On Appeal from The United States Court of Appeals for
the Eleventh Circuit
Case No. 19-12066
_______________________________________
Wastecare Corporation’s Petition for Writ of
Certiorari to the United States Court of Appeals for
the Eleventh Circuit
_______________________________________
PETITION FOR WRIT OF CERTIORARI
Leslie L. Pescia*
ASB-0224-U14E
BEASLEY, ALLEN, CROW,
METHVIN, PORTIS
& MILES, P.C.
218 Commerce Street
Montgomery, AL 36104
Tel: (334) 269-2343
Fax: (334) 954-7555
leslie.pescia@beasleyallen.com

James T. Sasser, Esq.
ATTORNEY AT LAW
Montgomery HWY,
Suite 104
Birmingham, AL 35216
jtsasserlaw@gmail.com

Counsel for Petitioner WasteCare Corporation
*Counsel of Record

PETITION FOR WRIT OF CERTIORARI
Wastecare Corporation petitions this Court for a
writ of certiorari to review the judgment of the United
States Court of Appeals for the Eleventh Circuit.
OPINIONS AND ORDERS BELOW
The opinion for the United States District Court for
the Northern District of Georgia is reported at Docket No.
1:18-cv-00120-RWS. The opinion for the Eleventh Circuit
Court of Appeals is located at 822 Fed. Appx. 892.
STATEMENT OF JURISDICTION
The Eleventh Circuit entered judgment on July 23,
2020 and denied Petitioner’s timely request for rehearing
on September 14, 2020. This Court issued an order on
March 19, 2020 extending the deadline to file any petition
for writ of certiorari from 90 days to 150 days. The Court
has jurisdiction under 28 U.S.C. §1254(1).

2

CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
Section 2 of the Federal Arbitration Act, 9 U.S.C. 2,
provides:
A written provision in any maritime transaction or a
contract evidencing a transaction involving commerce to
settle by arbitration a controversy thereafter arising out of
such contract or transaction, or the refusal to perform the
whole or any part thereof, or an agreement in writing to
submit to arbitration an existing controversy arising out of
such a contract, transaction, or refusal, shall be valid,
irrevocable, and enforceable, save upon such grounds as
exist at law or in equity for the revocation of any contract.
STATEMENT OF THE CASE
This case presents a significant, recurring legal
question that is unresolved in the lower courts and
warrants further review. Courts have reached varying and
conflicting conclusions concerning the delegation of
arbitrability when an arbitration provision expressly
carves out and exempts specific claims.

3

The Eleventh

Circuit’s ruling contributes to the growing split among the
courts about whether courts or arbitrators should decide
the threshold question of arbitrability when the contract
carves out specific claims from the arbitration provision
and contains no express provision for delegation.
Petitioner is a Georgia corporation that pioneered an
automatic trash compactor product (“ACR”) in the 1990’s.
The ACR is a control mechanism that causes the unit to
automatically

compact

trash

and/or

a

door

that

automatically opens as people make waste deposits.
On June 8, 1998, Petitioner entered into a written
distribution agreement with Respondent, a Minnesota
company. The Distribution Agreement provided that
Petitioner would handle the sales and marketing of the
ACR product, while Respondent handled the ACR design,
engineering, manufacturing, service, and warranty. The
Distribution Agreement period was a disaster because of
Respondent’s poor production and mismanagement.
The parties’ business relationship was on the cusp of
a breakdown when, on January 7, 2005, the parties entered

4

into the Licensing Agreement that now governs the
business relationship. The Licensing Agreement contains
the arbitration provision that is at issue on appeal before
this Court. The arbitration clause states:
[A]ny

controversy

or

claim

(excepting

claims as to which party may be entitled
to equitable relief) arising out of this
Agreement . . . shall be settled by arbitration
in

accordance

commercial

with

rules

of

the

then

arbitration

current
of

the

American Arbitration Association.
Doc. 1-1, Licensing Agreement, § 10.11 Arbitration. The
Licensing Agreement further provides that interpretation
of the Licensing Agreement will be governed by Illinois
substantive law:
Pursuant to the Licensing Agreement, Respondent
retained the design, engineering, manufacturing, service,
and warranty responsibilities for ACRs.

The Licensing

Agreement also transferred the ACR sales and marketing
responsibilities from Petitioner to Respondent.

5

The

Licensing Agreement required Respondent pay Petitioner
royalties based on units sold in the United States as well
as internationally.
After

entering

the

Licensing

Agreement,

Respondent entered into secret ventures with two new
start-up competitors with the purpose of circumventing its
royalty obligations to Petitioner under the Licensing
Agreement. The Licensing Agreement contemplates sales
of as many as 15,000 new ACRs; yet, in the next 12 years
Respondent only reported sales of about 250 new ACRs.
Further, Respondent consistently failed to abide by
the Licensing Agreement’s reporting requirements when it
provided late, incomplete, and inaccurate monthly and
quarterly reports of its business activities. Worse,
Respondent obstructed Petitioner’s attempts to audit
Respondent’s

ACR

activities

through

accounting

reconciliation. Petitioner’s efforts to obtain information
about Respondent’s ACR sales and activities were
repeatedly stonewalled at every turn.

6

As a result of Respondent’s failure to abide by the
agreement, Petitioner filed suit on May 17, 2018.
Respondent moved to compel arbitration of the case despite
Petitioner asserting equitable claims that are expressly
exempt from the arbitration provision. The district court
initially granted Respondent’s motion to compel; however,
Petitioner

sought

reconsideration

and

included

an

amended complaint. The district court granted Petitioner’s
motion for reconsideration, vacated its order compelling
arbitration, and ordered the clerk to file Petitioner’s
Amended Complaint. The operative Amended Complaint
asserts three traditional equitable claims: rescission of the
Licensing Agreement; an accounting of royalties owed by
to Petitioner by Respondent; and injunctive relief barring
Respondent from competing in the United States for 10
years. 1 Petitioner does not assert any claim sounding in
0F

contract or tort, nor does Petitioner seek monetary relief.

Petitioner’s initial complaint asserted claims for declaratory
judgment, an accounting, and injunctive relief.
1

7

REASONS FOR GRANTING THE WRIT
A.

This

case

concerns

an

important

and

recurring question of law that remains unresolved
and in conflict among the circuit courts.
When deciding whether parties agreed to “arbitrate
arbitrability,” courts generally apply ordinary state-law
principles that govern the formation of contracts. See
Mastrobuono v. Shearson Lehman Hutton, Inc., 514 U.S.
52, 62-63 (1995). Under Illinois law, determination of who
is to decide the question of arbitrability would require the
court to “see whether the parties objectively revealed an
intent to submit the arbitrability issue to arbitration.”
First Options of Chi., Inc. v. Kaplan, 514 U.S. 938, 944
(1995).
Questions of arbitrability are higher-order, gateway
questions that are presumptively for the courts to decide,
as courts cannot presume that such questions crossed the
parties' minds. Id. at 945. This Court has recognized, “A
party often might not focus upon that question or upon the
significance of having arbitrators decide the scope of their

8

own powers. And, given the principle that a party can be
forced to arbitrate only those issues it specifically has
agreed to submit to arbitration, one can understand why
courts might hesitate to interpret silence or ambiguity on
the ‘who should decide arbitrability’ point as giving the
arbitrators that power, for doing so might too often force
unwilling parties to arbitrate a matter they reasonably
would have thought a judge, not an arbitrator, would
decide.” First Options, 514 at 945 (internal citations
omitted).
Courts are not to assume that the parties agreed to
arbitrate

arbitrability

unmistakable

evidence

unless
that

there
they

is

clear

did so.

and

AT&T

Technologies, Inc. v. Communications Workers, 475 U.S.
643, 649 (1986). Assuming that parties agreed to arbitrate
arbitrability “might too often force unwilling parties to
arbitrate a matter they reasonably would have thought a
judge, not an arbitrator, would decide.” First Options, 514
U.S. at 945.

9

Here, there is no clear and unmistakable evidence
that the parties intended to send the issue of arbitrability
to an arbitrator. To the contrary, the parties clearly and
expressly intended for matters of equitable relief to be an
exception to arbitration as demonstrated by the carve out
provision. Despite the arbitration provision having no
express delegation language and containing a very clear
exception for equitable claims, the Eleventh Circuit held
the issue of arbitrability be delegated to an arbitrator. This
decision conflicts with other circuits.
The Second Circuit considered an arbitration clause
that incorporated the AAA rules and exempted certain
claims from arbitration. See NASDAQ OMX Grp., Inc. v.
UBS Sec., LLC, 770 F.3d 1010 (2d Cir. 2014). The Second
Circuit found that the parties had not clearly and
unmistakably delegated arbitrability “where a broad
arbitration clause is subject to a qualifying provision that
at least arguably covers the present dispute.” Id. at 1031.
Because there was ambiguity as to whether the parties
intended to have arbitrability questions decided by an

10

arbitrator—because the dispute arguably fell within the
carve-out—the court held the arbitrability question was for
the court to decide. Id.
The Eleventh Circuit’s decision also conflicts with
the Fifth Circuit’s decision in Schein on remand. The Fifth
Circuit held:
The most natural reading of the arbitration
clause at issue here states that any dispute,
except actions seeking injunctive relief, shall
be resolved in arbitration in accordance with
the

AAA

rules.

The

plain

language

incorporates the AAA rules—and therefore
delegates

arbitrability—for

all

disputes

except those under the carve-out. Given that
carve-out, we cannot say that the Dealer
Agreement evinces a ‘clear and unmistakable’
intent to delegate arbitrability.
Archer & White Sales, Inc. v. Henry Schein, Inc., 935 F.3d
274, 281–82 (5th Cir. 2019), cert. denied, No. 19-1080, 2020

11

WL 3146709 (U.S. June 15, 2020), and cert. granted, No.
19-963, 2020 WL 3146679 (U.S. June 15, 2020).
The Ninth Circuit has also considered the issue in
Oracle Am., Inc. v. Myriad Group A.G., 724 F.3d 1069 (9th
Cir. 2013). The arbitration clause adopted arbitration rules
delegating arbitrability issues to the arbitrator and
contained a carve-out for certain intellectual property and
licensing claims. The Ninth Circuit held that Oracle’s
carve-out argument conflated the scope of the arbitration
clause with the question of who decides arbitrability
because the claims carved-out by that agreement “ar[ose]
out of or relat[ed] to” the Source License, and the
agreement explicitly provided that any claim arising out of
the Source License was subject to arbitration.
The court noted that the issue with Oracle’s carve-out
argument was that the two categories of exempted claims
by definition were claims arising out of or relating to the
Source

License,

which

were

arbitration. Id. at 1076.

12

explicitly

subject

to

The conflict among the courts concerning the issues
in this case has continued and has substantial case
implications warranting the need for further review. This
Court has also appeared to express interest in resolving the
conflict by granting certiorari in Schein, supporting further
review of Petitioner’s case and this issue. Importantly, in
Schein, the party seeking arbitration is not a signatory to
the contract unlike the case at hand. Because this case
presents the issue directly and the question is outcome
determinative, this Court should
B.

The

Eleventh

Circuit’s

Decision

is

fundamentally flawed and contravenes this Court’s
jurisprudence.
The Eleventh’s Circuit’s decision to reverse the
district court and compel arbitration is not only in conflict
with other circuits, but it is also based on a flawed analysis
of this Court’s precedent and an improper extension of this
Court’s recent decision in Schein.
The

Eleventh

Circuit

upended

the

parties’

intentions and circumvented the parties’ contractual

13

agreement.

Importantly, the Licensing Agreement

contains no language delegating the issue of arbitrability.
Instead,

the

Eleventh

Circuit

relied

on

“implied

delegation,” which contradicts the requirement that the
delegation of arbitrability be clear and unmistakable. The
arbitration provision at issue identifies the rules applicable
to arbitrable claims by stating only that non equitable
claims “shall be settled by arbitration in accordance with
the then current commercial rules of arbitration of the
American Arbitration Association.” Within the 46 pages of
the AAA’s published rules, one rule allows an arbitrator to
determine the scope of his or her own jurisdiction.
Using this mere mention of rules applicable to
arbitrable claims as evidence of a “clear and unmistakable”
intent to delegate arbitrability of all claims to an
arbitrator, especially in the face of a carve out provision, is
an astronomical and illogical leap. The Eleventh Circuit’s
creation of implied delegation contravenes this Court’s
jurisprudence that courts are presumed to decide the
threshold issue of arbitrability. There is a “strong pro-

14

court presumption as to the parties’ likely intent.” AT&T
Techs., Inc. v. Commc’ns Workers, 475 U.S. 643, 649 (1986).
A party seeking to compel arbitration can overcome that
presumption only with “clear[] and unmistakabl[e]”
evidence. Id. Requiring the proponent of arbitration to
identify such evidence is important, because the issue of
who should decide arbitrability is “rather arcane,” and
failure to meet that standard “might too often force
unwilling parties to arbitrate a matter they reasonably
would have thought a judge, not an arbitrator, would
decide.” First Options of Chicago, Inc. v. Kaplan, 514 U.S.
938, 948 (1995). “Courts should not assume that the parties
agreed to arbitrate arbitrability unless there is ‘clea[r] and
unmistakabl[e]’ evidence that they did so.” First Options,
514 U.S. at 944 (quoting AT&T Techs., 475 U.S. at 649.).
While the Eleventh Circuit Panel acknowledged the
carve-out provision, it improperly analyzed and applied
this Court’s recent decision in Henry Schein, Inc. v. Archer
& White Sales, Inc., 139 S. Ct. 524, 529 (2019). In Schein,
this Court focused on the existence of the “wholly

15

groundless” exception and whether it complied with the
FAA. Id. In rejecting the wholly groundless exception, this
Court made clear that it expressed “no view about whether
the contract at issue in this case in fact delegated the
arbitrability question to an arbitrator.” Id. at 531. The
Eleventh Circuit, however, ignored this Court’s language
and wrongly interpreted Schein to be dispositive of
question concerning delegation of arbitrability.

The

Panel’s clearly erroneous interpretation of Schein is
further supported by this Court’s recent grant of certiorari
concerning the similar issue presented in this case. Henry
Schein, Inc. v. Archer & White Sales, Inc., --- S.Ct. ----, 2020
WL 3146679 (Mem); 207 L. Ed. 2d 1050 (June 15, 2020).
This Court has yet to address the issue of implied
delegation, and this case provides the key channel for the
Court to provide guidance on whether “implied delegation”
constitutes

clear

and

unmistakable

delegation

of

arbitrability. Moreover, the extension of implied delegation
to this type of case, where there is a clear and express

16

intent to exclude these specific claims from arbitration, is
untenable and implausible.
The district court correctly denied Respondent’s
motion to compel arbitration because the claims at issue
are purely equitable and expressly excluded from the
arbitration provision. A motion to compel arbitration
requires the District Court to determine: (1) whether there
is a valid written agreement to arbitrate; (2) if the dispute
falls within the scope of the arbitration agreement; and (3)
if the party asserting the claims has failed or refused to
arbitrate the claims. Caley v. Gulfstream Aero. Corp., 428
F.3d 1359, 1370 (11th Cir. 2005); see, e.g., Elzinga &
Volkers, Inc. v. LSSC Corp., 838 F. Supp. 1306, 1309 (N.D.
Ind. 1993); We Care Hair Dev., Inc. v. Engen, 180 F.3d 838,
844 (7th Cir. 1999). Courts are to enforce arbitration
agreements

only

when

questions

are

answered

affirmatively. Dean Witter Reynolds, Inc. v. Byrd, 470 U.S.
213, 218 (1985).
Applying the three-prong test outlined above, the
second prong of the analysis is not met because Petitioner’s

17

claims are exempt from the scope of the Licensing
Agreement’s arbitration clause. The Licensing Agreement
between the parties contains an arbitration clause which
explicitly states, “[A]ny controversy or claim (excepting
claims as to which a party may be entitled to equitable
relief) arising out of this Agreement … shall be settled by
arbitration ….” (Doc. 1-1 Licensing Agreement § 10.11
Arbitration). Petitioner’s Amended Complaint seeks only
traditional forms of equitable relief – rescission, an
accounting, and an injunction – and nothing else. Thus, by
the express terms of the parties’ Licensing Agreement,
Petitioner’s claims for equitable relief are excepted from
arbitration.
In Freeman v. Freyer, plaintiffs brought an action in
equity seeking an accounting for their share of profits
obtained by the defendants from the sale of real property.
The plaintiffs also sought an injunction enjoining the
defendants from negotiating the plaintiffs’ promissory note
and, further, sought the return of their security deposit.
The

defendants

challenged

18

the

courts

equitable

jurisdiction, but the court held that “[t]he remedy at law
was not adequate under the circumstances . . . as the
remedy was not as clear, complete, practical and efficient
to the ends of justice and its prompt administration as the
remedy in equity.” Id. at 219.
Like Freeman, Petitioner is not seeking monetary
damages but rather an accounting of royalties. Illinois law
clearly recognizes a claim for an accounting as sounding in
equity. See Microtunneling v. Walsh Const. Co. of Illinois,
747 N.E 2d 410, 417 (Ill. App. Ct. 2001) (“An accounting is
an equitable action.”). The parties clearly and expressly
intended for equitable claims, such as an accounting, to be
exempt from arbitration. Thus, the District Court properly
determined that these well-settled equitable claims fall
within the exception to arbitration found in the Licensing
Agreement. The parties clearly intended this result.
The Eleventh Circuit’s reasoning for compelling
arbitration

is

significantly

flawed

and

in

direct

contradiction to the express intentions of the parties.
Merely identifying a set of rules that apply to arbitrable

19

disputes in no way suggests that the parties clearly and
unmistakably delegated arbitrability of claims that they
expressly excluded from arbitration. The Court should
grant certiorari in this case, and it should vacate the court
of appeals’ judgment compelling arbitration.
/s/ Leslie L. Pescia
Leslie L. Pescia
BEASLEY, ALLEN, CROW,
METHVIN, PORTIS
& MILES, P.C.
Attorneys for Appellee
WasteCare
218 Commerce Street
Montgomery, AL 36104
Tel: (334) 269-2343
Fax: (334) 954-7555

20

APPENDIX A

[DO NOT PUBLISH]
IN THE UNITED STATES COURT OF APPEALS FOR
THE ELEVENTH CIRCUIT
________________________
No. 19-12066
Non-Argument Calendar
________________________
D.C. Docket No. 2:18-cv-00120-RWS
WASTECARE CORPORATION.,
Plaintiff-Appellee,

versus
HARMONY ENTERPRISES, INC.,

Defendant-Appellant.
________________________
Appeal from the United States District Court for the
Northern District of Georgia
________________________
(July 23, 2020)
Before JORDAN, BRANCH, and TJOFLAT, Circuit
Judges.
PER CURIAM:
This

appeal

arises

from

a

lawsuit

between

WasteCare Corporation (“WasteCare”) and its partner in
the sale and manufacture of automatic trash compactors

1a

(“ACR”), Harmony Enterprises (“Harmony”). When their
two-decade business relationship proved unsuccessful,
WasteCare filed suit against Harmony, seeking relief for
Harmony’s alleged violation of the parties’ Licensing
Agreement (the “Agreement”). In response, Harmony
moved to stay the proceeding and compel binding
arbitration pursuant to the Agreement’s arbitration
provision. The district court granted Harmony’s motion,
but upon WasteCare’s motion for reconsideration and leave
to file an amended complaint, vacated that order. Harmony
now appeals. Because we find the district court erred in
vacating its prior order compelling arbitration, we reverse.
I
WasteCare,

a

Georgia

corporation,

led

the

development of the ACR—an automatic trash compactor
designed for restaurants chains, airports, and other public
establishments. On January 7, 2005, it entered into the
underlying Agreement with Harmony, a Minnesota
corporation. The Agreement provided that Harmony would
continue to manage the ACR design, manufacture, and

2a

service, as well as assume WasteCare’s sales and
marketing

responsibilities.

The

Agreement

further

required Harmony to pay WasteCare royalties on all new
ACRs that Harmony “caused to be sold.”
On May 18, 2018, WasteCare filed a complaint in
Georgia state court. The original complaint alleged that
Harmony colluded with other ACR sellers to act as “secret
sales arms” and sell WasteCare’s ACRs in order to avoid
paying WasteCare royalties. WasteCare also alleged that
Harmony failed to comply with the monthly reporting
requirement under the Agreement regarding new ACRs
Harmony “has sold or has caused to be sold to any entity.”
Thus, WasteCare argued Harmony materially breached
the Agreement and sought what it described as “equitable
relief” for this breach. Specifically, WasteCare’s original
complaint requested: (1) “a declaratory judgment that . . .
Harmony violated [the Agreement], . . .” (2) an accounting
of royalties owed by Harmony to WasteCare pursuant to
the Agreement, and (3) an injunction terminating
Harmony’s rights in the ACR product line “for a period of

3a

10 years.” Harmony successfully removed the case to the
United States District Court for the Northern District of
Georgia and then moved to stay proceedings and compel
binding arbitration.
Harmony pointed to the arbitration clause in the
parties’ Agreement, which provides:
In the event that any controversy or claim (excepting
claims as to which party may be entitled to equitable
relief) arising out of this Agreement cannot be
settled by the parties hereto, such controversy or
claim shall be settled by arbitration in accordance
with the then current commercial rules of
arbitration of the American Arbitration Association.
Harmony asserted the carveout for equitable claims
did

not

apply

because

WasteCare’s

complaint

mischaracterized its breach of contract claims as equitable
ones.
WasteCare responded to the motion by noting that
its complaint, “seeks only equitable relief and nothing
else.” The district court found “it is clear that [WasteCare]
is attempting to assert breach of contract claims against
[the] Defendant under the guise of an action for equitable

4a

relief.” In so finding, the district court granted Harmony’s
motion to compel arbitration.
WasteCare then moved for reconsideration pursuant
to Rule 54(b) of the Federal Rules of Civil Procedure 1 and,
0F

in the alternative, leave to file an Amended Complaint.
[Doc. 15.] The Amended Complaint attached to the motion
abandoned the request for declaratory relief, and instead
requested: (1) rescission of the Agreement, (2) an
accounting of the royalties Harmony owes, and (3)
injunctive relief barring Harmony from competing in the
domestic ACR industry for 10 years.
The district court granted both forms of relief. The
district court explained that it “reviewed the proposed
Amended Complaint . . . and [found] that it properly
asserts cognizable equitable claims that appear to fall
within the express exception provided by the parties’
Licensing Agreement.” Accordingly, the district court

Rule 54(b) states, in relevant part, that “any order . . . may be
revised at any time before the entry of a judgment adjudicating all
the claims and all the parties’ rights and liabilities.”

1

5a

allowed WasteCare to file the Amended Complaint and
vacated its prior order compelling arbitration.
On appeal, Harmony asserts the district court
“abused its discretion and committed clear error” by
reconsidering its initial motion compelling arbitration and
thereby improperly determining the issue of arbitrability.
II.
We review a district court’s grant of a motion for
reconsideration for abuse of discretion. Region 8 Forest
Serv. Timber Purchasers Council v. Alcock, 993 F. 2d 800,
805–806 (11th Cir. 1993). “A district court by definition
abuses its discretion when it makes an error of law.” Koon
v. United States, 518 U.S. 81, 100 (1996). “We review de
novo both the district court’s denial of a motion to compel
arbitration and the district court’s interpretation of an
arbitration clause.” Jones v. Waffle House, Inc., 866 F.3d
1257, 1263 (11th Cir. 2017) (internal citations omitted).
The grant of WasteCare’s motion for reconsideration was
effectively a denial of Harmony’s motion to compel

6a

arbitration. We therefore review the district court’s
decision de novo. 2
1F

III.
The parties disagree as to whether it was
appropriate for the district court to entertain WasteCare’s
motion for reconsideration in the first place. 3 But at the
2F

heart of this appeal is whether, by granting the motion for
reconsideration and reversing its prior order compelling
arbitration, the district court erred in determining the

Because we hold that the district court erred by making an error of
law, whether we review this decision de novo or under an abuse of
discretion standard does not, at bottom, affect the outcome. See Koon,
518 U.S. at 100 (“Little turns, however, on whether we label review of
this particular question abuse of discretion or de novo, for an abuse-ofdiscretion standard does not mean a mistake of law is beyond appellate
jurisdiction. . . . The abuse-of-discretion standard includes review to
determine that the discretion was not guided by erroneous legal
conclusions.”).
3 Harmony argues that the district court abused its discretion by
considering WasteCare’s motion for reconsideration even though its
motion was untimely and “inappropriate.” Harmony also claims that
the district court abused its discretion by failing to provide an
adequate explanation for its decision to grant the motion for
reconsideration. Because we hold that the district court erred in
granting the motion for reconsideration on other grounds, we need
not reach those arguments here.
Harmony also makes a related argument that the district court
abused its discretion in allowing WasteCare to amend its complaint
because that amendment was futile. “The decision whether to grant
leave to amend is committed to the sound discretion of the trial
court.” Espey v. Wainwright, 734 F.2d 748, 750 (11th Cir. 1984); see
also Fed. R. Civ. P. 15(a)(2). Given that wide grant of discretion, we
decline to find that the district court abused it here.
2

7a

issue of arbitrability. Harmony argues that, under the
Agreement, the question of the arbitrability of WasteCare’s
claims should have been submitted to the arbitration
panel. We agree.
“Unless the parties clearly and unmistakably
provide otherwise, the question of whether the parties
agreed to arbitrate is to be decided by the court, not the
arbitrator.” AT & T Techs., Inc. v. Commc’ns Workers of
Am., 475 U.S. 643, 649 (1986). And “when the parties’
contract delegates the arbitrability question to an
arbitrator, a court may not override the contract . . . even
if the court thinks that the argument that the arbitration
agreement applies to a particular dispute is wholly
groundless.” Henry Schein, Inc. v. Archer & White Sales,
Inc., 139 S. Ct. 524, 529 (2019).
Here, the parties agreed to submit the issue of
arbitrability to the arbitrators. As noted above, the
Agreement’s arbitration clause invokes the “current
commercial

rules

of

arbitration

of

the

American

Arbitration Association.” Rule 7(a) of the American

8a

Arbitration Association (“AAA”) Commercial Rules, in
turn, provides that “[t]he arbitrator shall have the power
to rule on his or her own jurisdiction, including any
objections with respect to the existence, scope or validity of
the arbitration agreement.” 4 Am. Arbitration Ass’n,
3F

Commercial

Rules,

https://adr.org/sites/default/files/Commercial%20Rules.pdf
. We have held that where the parties expressly incorporate
the AAA rules into an arbitration provision, “this alone
serves as a clear and unmistakable delegation of questions
of arbitrability to an arbitrator.” JPay, Inc. v. Kobel, 904
F.3d 923, 936 (11th Cir. 2018); see also Terminix Int’l Co.
v. Palmer Ranch LP, 432 F.3d 1327, 1332 (11th Cir. 2005).
Harmony

and

WasteCare

therefore

clearly

and

unmistakably delegated questions of arbitrability to an
arbitrator.
WasteCare asserts JPay is inapposite because in
that case we found intent to delegate questions of

The current version of the AAA rules has been in effect since
October 1, 2013 and therefore applies to this dispute.
4

9a

arbitrability to an arbitrator where the parties’ agreement
incorporated the AAA rules and included an express
delegation of questions of arbitrability. This argument is
unpersuasive. We expressly stated in JPay that the
incorporation of the AAA rules “alone serves as a clear and
unmistakable delegation of questions of arbitrability to an
arbitrator” and that either the incorporation of the AAA
rules or an express delegation “would amount to a clear and
unmistakable delegation of questions of arbitrability to the
arbitrator.” JPay, 904 F.3d at 936.
The arbitration provision’s carve-out for equitable
relief does not affect this analysis. Although WasteCare’s
claims may indeed be equitable ones, that “confuses the
question of who decides arbitrability with the separate
question of who prevails on arbitrability.” Schein, 139 S.
Ct. at 531. In Schein, the Supreme Court considered an
arbitration provision that included a carve-out for
equitable relief and provided AAA rules would govern

10a

arbitration. 5 Id. at 528. The Court rejected the argument
4F

that the district court could determine the gateway
question of arbitrability because the plaintiff’s claims fit
into the carve-out provisions, rendering the defendant’s
argument for arbitration “wholly groundless.” Id. at 539.
Citing AT&T Technologies, the Court held, ‘[j]ust as a court
may not decide a merits question that the partoes have
delegated to an arbitrator, a court may not decide an
arbitrability question that the parties have delegated to an
arbitrator.” Id. at 530; see also jones, 866 F.3d at 1269 (“If
the

parties

clearly

and

unmistakably

intended

to

arbitration all gateway issues, then all gateway issues—
regardless of how frivolous the court may deem them to
be—should be arbitrated.) (emphasis in original). Here,
5

In full, the arbitration provision at issue in Schein provided:

Disputes. This Agreement shall be governed by the laws of the State of
North Carolina. Any dispute arising under or related to this Agreement
(except for actions seeking injunctive relief and disputes
related to trademarks, trade secrets, or other intellectual
property of [Schein]), shall be resolved by binding arbitration in
accordance with the arbitration rules of the American Arbitration
Association [(AAA)]. The place of arbitration shall be in Charlotte,
North Carolina.
Schein, 139 S. Ct. at 528 (emphasis added).

11a

the parties expressly delegated the arbitrability issue to an
arbitrator. Thus, the arbitrator must decide whether
WasteCare can litigate its claims in district court. 6
5F

Accordingly, the district court erred in granting
reconsideration of its prior order compelling arbitration,
which effectively denied Harmony’s motion to compel. We,
therefore, REVERSE the district court’s reconsideration of
its order compelling arbitration and REMAND with
instructions that WasteCare’s claims be referred to
arbitration.
REVERSED and REMANDED.

This Court, therefore, cannot address Harmony’s argument that
WasteCare’s claims fall within the scope of the arbitration provision.
That question must be resolved by the arbitrator.

6

12a

APPENDIX B

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF GEORGIA
GAINESVILLE DIVISION
WASTECARE
CORPORATION,

CIVIL ACTION NO.

Plaintiff,
v.

2:18-CV-120-RWS

HARMONY ENTERPRISES,
INC.,
Defendant.
ORDER
This case is before the Court on Plaintiff’s Motion for
Relief from Order [Doc. No. 15]. Plaintiff moves the Court
for relief pursuant to Federal Rule of Civil Procedure 54(b)
[Doc. No. 15]. However, Defendant argues that Plaintiff is
actually seeking reconsideration of its earlier order [Doc.
No. 14], and the Court agrees. Thus, the Court must
consider Defendant’s timeliness argument.
Motions for reconsideration are granted only in
extraordinary circumstances, “namely the discovery of new
evidence, an intervening development or change in the law,

13a

or the need to correct a clear error or prevent a manifest
injustice.” Deerskin Trading Post, Inc. v. United Parcel
Serv. of Am., Inc., 972 F. Supp. 665, 674 (N.D. Ga. 1997). A
motion for reconsideration may not be used to offer new
legal theories or evidence that could have been presented
previously, unless a reason is given for failing to raise the
issue at an earlier stage in the litigation, Escareno v.
Noltina Crucible & Refractory Corp., 172 F.R.D. 517, 519
(N.D. Ga. 1994) (citing O’Neal v. Kennamer, 958 F.2d 1044,
1047 (11th Cir.1992)), and such motions are not an
opportunity for parties “to instruct the court on how the
court ‘could have done it better’ the first time.” Preserve
Endangered Areas of Cobb’s History, Inc. v. U.S. Army
Corps of Engineers, 916 F. Supp. 1557, 1560 (N.D. Ga.
1995). Local Rule 7.2(E) provides that a motion for
reconsideration must be filed within twenty-eight days
after entry of the order or judgment for which the party
seeks reconsideration. It is clear that Plaintiff’s motion was
not timely filed.

14a

But the Court has discretion to consider the motion even
though it is not timely filed, and the Court will do so. The Court
has reviewed the proposed Amended Complaint [Doc. No. 15-1]
and finds that it properly asserts cognizable equitable claims
that appear to fall within the express exception provided by the
parties’ Licensing Agreement. Under these circumstances, the
Court will allow the filing of the Amended Complaint.
As such, Plaintiff’s Motion for Relief from Order [Doc. No.
15], which the Court construes as a Motion for Reconsideration,
is GRANTED. The Court’s previous order [Doc. No. 14] is hereby
VACATED. The Clerk is DIRECTED to reopen the action, and
the stay is LIFTED. The Clerk is also DIRECTED to file the
proposed Amended Complaint [Doc. No. 15-1]. Defendant is
ORDERED to respond to the Amended Complaint in accordance
with the Federal Rules of Civil Procedure.
SO ORDERED this 8th day of May, 2019.

RICHARD W. STORY
United States District Judge

15a

APPENDIX C
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
________________________
No. 19-12066-EE
________________________
WASTECARE CORPORATION,
Plaintiff - Appellee,

versus
HARMONY ENTERPRISES, INC.,

Defendant - Appellant.
________________________
Appeal from the United States District
Court for the Northern District of Georgia
________________________
ON PETITION(S) FOR REHEARING AND PETITION(S) FOR
REHEARING EN BANC
BEFORE: JORDAN, BRANCH and TJOFLAT, Circuit Judges.
PER CURIAM:
The Petition for Rehearing En Banc is DENIED, no judge in
regular active service on the Court having requested that the
Court be polled on rehearing en banc. (FRAP 35) The Petition
for Rehearing En Banc is also treated as a Petition for Rehearing
before the panel and is DENIED. (FRAP 35, IOP2)
ORD-42

16a

APPENDIX D
UNITED STATES DISTRCT COURT
NORTHERN DISTRICT OF GEORGIA
GAINESVILLE DIVISION
WasteCare Corporation,

)
)
Plaintiff,
)
)
v.
)
)
Harmony Enterprises, Inc., )
)
Defendant.
)

No. 2:18-cv-120-RWS

PLAINTIFF’S FIRST AMENDED COMPLAINT
FOR EQUITABLE RELIEF
This action seeks equitable relief in the form of a
declaratory

judgment

that

defendant

Harmony

Enterprises, Inc. (“Harmony”) violated a Rights Transfer
Agreement

(“Licensing

Agreement”)

with

plaintiff

WasteCare Corporation (“WasteCare”), an accounting of
royalties owed by Harmony toWasteCare pursuant to the
Licensing Agreement, and an injunction terminating
Harmony’s rights in the Automatic Compacting Receptacle
(“ACR”) product line for a period of 10 years.

17a

PARTIES
1.

Plaintiff WasteCare is a corporation organized

pursuant to the laws of the state of Georgia with its
principal place of business in Gainesville, Georgia.
2.

Defendant Harmony is a corporation organized

pursuant to the laws of the state of Minnesota with its
principal place of business in Harmony, Minnesota.
JURISDICTION AND VENUE
3.

This Court has subject matter jurisdiction over this

civil action under GA Const. art. VI, Section 4, ¶ 1.
4.

This Court has personal jurisdiction over Harmony

pursuant to O.C.G.A. § 9-10-91 because Harmony has
transacted business
Harmony

entered

within this State.
into

multiple

Specifically,

agreements

with

WasteCare, including the relevant Licensing Agreement,
in Gainesville, Hall County, Georgia. Furthermore,
Harmony has sufficient contacts with Georgia by soliciting
business throughout the State and selling numerous ACRs
to the Atlanta Airport, the University of Georgia, and other
locations within the state of Georgia.

18a

5.

Since a substantial part of the events or omissions

giving rise to WasteCare’s claims occurred in Hall County,
including the making of the Licensing Agreement, venue is
proper in Hall County.
6.

Section 10.11 of the Licensing Agreement states that

“any controversy or claim (excepting claims as to which
party may be entitled to equitable relief) arising out of this
Agreement” are to be settled by arbitration in Chicago,
Illinois. WasteCare is making equitable claims for relief, so
this exception to the arbitration clause applies. As such,
this Court has jurisdiction over this action and is the
appropriate venue for this action.
APPLICABLE LAW
7.

Section 10.10 of the Licensing Agreement states the

laws of the “State of Illinois will govern all questions
concerning the construction, validity and interpretation of
this Agreement and the performance of the obligations
imposed by this Agreement.” Since this action concerns the
interpretation and performance of the obligations imposed

19a

by the Licensing Agreement, this Court should apply
Illinois law.
FACTUAL ALLEGATIONS
8.

The ACR product is an automatic trash compactor

which has a control mechanism that causes the unit to
automatically

compact

trash

and/or

a

door

that

automatically opens as people make waste deposits. The
ACR is designed to be implemented on a large scale basis
by restaurant chains and other establishments with
significant space open to the public. This includes fast food
chains, airports, malls, government buildings, theme
parks, and the like.
9.

From 1995-1998, WasteCare pioneered the product

concept, built product awareness and demand, both
nationally and globally, and developed the ACR at great
cost and obtained the first ever trademark for the product
class (Smart-Pack). During that time, WasteCare worked
with smaller manufacturers who did not have the
capability to adequately manufacture the ACRs.

20a

10.

The time was well spent, however, as WasteCare

was able to interact with engineering departments at many
large corporations to refine ACR capabilities and build
relationships with the largest potential buyers. This period
involved significant amounts of travel, trade shows, and
sales/marketing expenses on the part of WasteCare to
create and sustain interest while the product was being
refined.
A. Distribution Agreement Period
11.

Due

to

market

demand

and

the

business

relationships that WasteCare built, Harmony’s President
approached WasteCare and offered to manufacture the
ACRs. Harmony’s President represented that Harmony
was ideally suited to manufacture this niche product.
12.

On June 8, 1998, the parties signed a Distribution

Agreement whereby WasteCare would handle all ACR
sales and marketing, and Harmony would handle ACR
design,

engineering,

manufacturing,

warranty.

21a

service,

and

13.

Throughout

the

Distribution

Agreement’s

negotiation, Harmony touted its 40 years of manufacturing
experience and that the company would ‘dominate’ this
product category.
14.

Six years into the Distribution Agreement, however,

Harmony

manufactured

ACRs

exhibited

very

poor

performance and were an embarrassment in the field,
thereby causing low sales and much greater costs and
losses to WasteCare.
15.

Around this time, WasteCare discovered that

Harmony grossly underbid the costs and design of the ACR.
WasteCare learned that Harmony was losing $500 or more
per unit. This gave Harmony an incentive to sabotage sales
to prevent huge losses. Harmony was secretly and
fraudulently telling customers that ACR breakdowns were
due to WasteCare’s design (even though Harmony was
responsible for the design), and selling other Harmony
products to these same customers (customers WasteCare
had developed at great cost).

22a

16.

WasteCare suffered substantial losses and incurred

significant costs to keep market demand alive because of
Harmony’s efforts to sabotage sales. In fact, several large
corporations confirmed they would have purchased
thousands of ACRs if the product simply would have
worked.
B. Transition to Licensing Agreement
17.

WasteCare

was

preparing

a

lawsuit

against

Harmony when Harmony asked that the parties transition
to a Licensing Agreement where Harmony would assume
all responsibilities, including sales/marketing, and pay a
royalty to WasteCare. Harmony assured WasteCare that if
it entered into the Licensing Agreement, Harmony could
quickly sell thousands of ACRs, and it would not try to
cheat WasteCare out of its royalties.
18.

WasteCare and Harmony entered into the Licensing

Agreement on January 7, 2005. A copy of this agreement is
attached as Exhibit A.
19.

Under

the

Licensing

Agreement,

Harmony

continued to assume all rights and responsibilities in the

23a

design, engineering, manufacture, service, and warranty of
the ACRs, and also assumed all sales and marketing
responsibilities of the ACR product lines.
20.

Harmony further agreed to pay WasteCare a royalty

of five percent on all new ACRs that Harmony sold or
caused to be sold to any entity up to a chronological
aggregate of 15,000 units in the United States, with a
‘Minimum Unit Royalty’ of $100 per unit for ACRs sold in
the United States (CPI adjusted and currently $175+). For
ACRs sold internationally, Harmony agreed to pay
WasteCare a $65 per unit flat fee royalty. Under § 3.1(b)(ii)
of the Licensing Agreement, Harmony is to pay WasteCare
royalties until a 15,000 unit chronological aggregate is
achieved in the U.S.
21.

During the contract discussions, the timetable

envisioned

for

Harmony

to

complete

the

15,000

chronological aggregate units was no more than 10 years.
In fact, it was expected to be much less than 10 years.
Harmony had virtually no competition at the start of the
Licensing Agreement, and the Smart-Pack ACR was the

24a

only ACR that had been extensively refined by WasteCare
not only during the three years of pioneering prior to the
Distribution Agreement, but also six years thereafter
during the Distribution Agreement phase. This allowed for
nine years of development and perfecting the desired safety
features, capabilities, and operational expectations of the
marketplace.
22.

During

the

contract

discussions,

Harmony

emphasized having the enormous advantage of not having
any competition, and stated that WasteCare was providing
a great foundation and a valuable customer base. Harmony
stated that this customer base was primed to purchase
large quantities once Harmony was free of the cost issues
and had control of the product line.
23.

The average sales prices for ACRs range from

$5,000-$7,000, meaning when Harmony reached the
aggregate limit, WasteCare’s expected royalties would be
roughly $4 – $5 million for U.S. sales plus $500,000 – $1
million on international sales.

25a

24.

Harmony should have fulfilled the 15,000 units by

now because it holds itself out as the global leader in
manufacturing with respect to this particular product class
involving the ACR technology. Further, Harmony – a 50year veteran in the industry – touted how easy it would be
to dominate this market based on how well-suited
Harmony is for the product line (global customer base,
supplier relationships, buying power, service network,
etc.).
25.

The parties are now 12 years into the Licensing

Agreement, and Harmony reports that it is still basically
at ground zero and nowhere near 15,000 units sold.
Harmony has reported hardly any sales over the course of
the Licensing Agreement, and most of what has been
reported were orders that fell in Harmony’s lap from the
original sales of WasteCare both during the Distribution
Agreement and before. Harmony has only reported about
250 new sales of ACRs that have been contributed by
Harmony.

26a

26.

While Harmony’s reported sales have languished,

two start-up companies are outselling Harmony by the
thousands and probably at a ratio of about 100 to 1 or more,
despite having no prior experience in the industry and
operating out of a small office space. Harmony should
easily be able to outperform these start-ups in terms of
capabilities, features, pricing, and closing ACR sales. It is
clear that Harmony has not made a good faith effort to keep
its

commitment

involving

the

15,000

units

which

WasteCare relied on as a condition to entering the
agreement. At Harmony’s current reported sales rate, it
would take over 500 years for the 15,000 units to be
completed.
27.

From the beginning of the Licensing Agreement,

WasteCare received numerous serious buyer inquiries that
it forwarded to Harmony. Many of these inquiries were
from buyers who stated they had already done evaluations
and a payback analysis on the ACR’s and were calling to
discuss orders. Out of these inquiries forwarded to
Harmony by WasteCare (and excluding WasteCare’s

27a

customers prior to the Licensing Agreement who were
calling to reorder or follow through on prior arrangements
with WasteCare), WasteCare could only pinpoint six units
in the entire 12-year period that were converted by
Harmony.
C. Harmony’s Collusion with Big Belly
27.

In

2003,

before

the

Licensing

Agreement,

WasteCare was approached by Big Belly, one of the abovementioned start-up companies, about working together.
Big Belly was in the process of getting funded and wanted
to focus on solar outdoor ACRs. Big Belly and WasteCare
discussed the idea of a cross licensing agreement where Big
Belly would focus on the outdoor ACRs and WasteCare
would focus on indoor ACRs. WasteCare made Harmony
aware that WasteCare was working on this arrangement
with Big Belly.
28.

Immediately after signing the Licensing Agreement,

several Harmony executives traveled to meet with Big
Belly, and as time passed this meeting and subsequent
frequent meetings became more and more secretive. It was

28a

during this same time frame that Harmony told WasteCare
it had discontinued production of outdoor ACRs, claiming
that there was no demand for the product. This made no
sense because outdoor ACRs had been extremely popular
during the Distribution Agreement years and were in huge
demand by many large organizations such as Walt Disney,
who had been on the verge of buying several thousand
outdoor ACR’s on several occasions if the Harmonymanufactured product would have just worked.
29.

Harmony’s true reason for the discontinuation was

that it had a secret deal with Big Belly. Harmony made Big
Belly the single source provider of outdoor ACRs for over
10 years. During this time, Harmony worked with Big
Belly to provide wireless monitoring systems for the
outdoor ACRs at huge profit margins. In return, Harmony
stayed out of the U.S. outdoor ACR market. From inception
(which began around the same time as the Licensing
Agreement began) through the first 10 years, Big Belly sold
30,000 outdoor ACRs. Since there can be roughly $350 $500 in profit for each wireless monitoring system option,

29a

these 30,000 machines made Harmony around $10 million
at little cost or effort.
30.

This also explains why Harmony and Big Belly were

both promoting the wireless monitoring system feature
under the same Smart Trash brand that was registered to
Harmony. Harmony discontinued its use of the Smart
Trash name during the time frame that WasteCare started
pressing hard to get answers, and also during the time
frame that a separate lawsuit (not involving WasteCare)
was being pursued against Harmony pertaining to patent
rights on the Wiresless Monitoring System. Harmony
switched and began using the brand Insite Wireless. It
made sense for Big Belly to keep the old brand because it
had already sold 30,000 ACRs with the wireless monitoring
system. At the same yearly sales rate as prior years, Big
Belly has now sold over 35,000 outdoor ACRs.
31.

By

2014

manufactured

or

even

outdoor

before,
ACRs

Harmony
and

sold

secretly
them

internationally, all while telling WasteCare there was no
demand for them and they had no plans to re-introduce

30a

them

into

the

market

again.

This

was

another

collaboration by Harmony and Big Belly to circumvent
royalties by capitalizing on the cross-licensing deal concept
that WasteCare had been working on with Big Belly prior
to the Licensing Agreement.
32.

WasteCare found out about Harmony’s dishonesty

involving the outdoor ACRs because of the abovereferenced patent infringement lawsuit that was filed
against Harmony related to the wireless monitoring
system. The lawsuit was quickly settled, but during this
litigation it was revealed that Harmony had manufactured
and sold 24 outdoor ACRs to the French Open that included
the Wireless Monitoring Systems.
33.

Harmony’s President lied in an email and tried to

convince WasteCare that the 24 ACR’s were just put there
on a one-month promotional engagement (which was an
effort to cheat WasteCare out of royalties). WasteCare
learned, however, that Harmony had not only been paid a
50 percent deposit for those machines a year earlier, but
had also been paid in full at least six months prior to the

31a

President’s email. In order to re-introduce the Outdoor
version, it would have taken several years of planning and
re-testing while integrating the new outdoor exteriors and
weatherproof components. Harmony kept this a secret
from WasteCare and maintained all along that there would
not be any Outdoor ACRs due to lack of market demand.
Even more amazing is that in spite of the tremendous
start-up costs that would have been incurred (for reintroducing the outdoor ACR version) Harmony has never
reported any other outdoor ACR activity or sales to
WasteCare.
34.

Harmony, in efforts to justify to WasteCare why it

had gifted Big Belly with single source status worldwide
for the Outdoor ACRs, misrepresented to WasteCare that
there was a patent involving the way the solar power
activated the machine. This was not true.
D. Harmony’s Collusion with Compaction
Technologies
35.

For the entire Licensing Agreement period, which

includes the present day, Harmony has represented to

32a

WasteCare that it has never added any innovations,
versions, or “next generation” models to the ACR product
line.
36.

Harmony

covertly

began

“next

generation”

initiatives as early as 2010, however, which turned into
very secretive ventures involving units and innovations
that had been in WasteCare and Harmony’s joint plan for
future ACR developments that would be introduced once
Harmony got the product working correctly. Harmony
began another initiative a couple years later that was
featured in a Minnesota Star Tribune article on March 24,
2013.
37.

Additionally, Compaction Technologies, Inc. (“CTI”),

a Minnesota company that only started doing business in
2010, already has several ACR versions. All of these
versions are ones that WasteCare spoke with Harmony
about in confidence as “next generation” versions that
could be pursued for their mutual benefit. Harmony
provided this confidential information to CTI to set up
secret revenue channels that allow Harmony to sell ACRs

33a

to CTI at retail without having to incur costs related to
sales/marketing, warranty/service, customer training, and
administrative matters, all while stealing royalties from
WasteCare.
38.

In turn, CTI was able to drastically inflate the ACR

normal price range and sell to the Federal Government at
an additional 35 percent above retail (which was 35 percent
above the going rate and 35 percent above Harmony’s GSA
listed pricing at that time). Senior level government
procurement personnel confirmed this, stating that the
Harmony ACR and the CTI-sold ACR were essentially the
same machine, and that the purchase at the greatly
inflated mark-up price was just for the base machine and
did not include any options or extras. No reason was given
for why the government purchased the 1,000 ACRs at the
much higher price.
39.

WasteCare previously received this inquiry (that

resulted in the 1,000 ACR sale) by a government office.
WasteCare forwarded the inquiry to Harmony, indicating
that it was one of the best ACR inquiries ever received.

34a

Harmony responded to WasteCare saying that the deal was
“dead” (and never gave any further updates to WasteCare).
WasteCare later discovered that CTI obtained this
government contract (a $7 million order) in late 2013,
despite being a start-up working from a very small office
sharing space in an area zoned for offices only (not
manufacturing). CTI was not GSA approved, so it had to
get the contract via an “umbrella company” that was GSA
approved.
40.

WasteCare initially learned of CTI in late 2015 after

forwarding a lead to Harmony involving a large chain
customer (with intentions of purchasing large quantities).
The customer already was testing ACR’s with CTI, and test
the Smart-Pack. Harmony was not willing to test against
CTI, however, and pretended they did not know CTI.
Sometime thereafter, WasteCare learned that the abovereferenced $7 million deal, intended for the Smart-Packs a
few years earlier, had been diverted to CTI. Prior to this,
WasteCare did not even know CTI existed.

35a

41.

Harmony’s ACR (representing years of development

and fine-tuning) and CTI’s ACR version have an identical
appearance except for a tiny light above the door. This
striking resemblance caused WasteCare to question the
origin of CTI’s ACR since there can be no denying that it
looks like they both come from the same factory.
WasteCare also questioned how it could be remotely
possible for this start-up to have obtained the government
contract, especially at a price that was a sudden jump of 35
percent above the going retail level that was established in
the marketplace.
42.

Harmony’s collusion with CTI in getting the

government contract is obvious because instead of putting
the branding/labeling on those 1,000 ACRs at the Harmony
factory (where employees would question the different
trade name and telephone number being affixed to the
product), Harmony shipped the ACRs to the government
with no branding or service contact information. Upon
delivery, the government had to apply a stick-on label with
the CTI branding and service contact information. Also, a

36a

top-level government procurement officer agreed that
Harmony’s ACR and CTI’s ACR were virtually identical.
43.

Further evidence that Harmony manufactured the

1,000 ACRs sold by CTI to the government is that CTI did
not have the capability to undertake the task. This size of
an order and the associated demands would create a heavy
burden even for even a large manufacturer. As mentioned,
at the time, CTI existed in a small office cubicle within a
very small office sharing location zoned exclusively for
“office” (not manufacturing) use. Harmony was the only
company with the capability to fill such a large order. Since
moving from the small office suite in early 2014, CTI
continues to operate from a fairly small office suite zoned
for “light manufacturing” (which does not encompass the
type of stainless steel fabrication necessary for ACR
production). Furthermore, according to U.S. Customs, CTI
has never imported any ACR parts or assemblies.
44.

Almost instantaneously from commencement CTI

has displayed multiple versions of ACRs on its website,
many of which were derived from WasteCare’s ACR

37a

pioneering efforts and contributions starting in 1995.
These various ACR versions displayed on the CTI website
are also ACR innovations and ‘next generation’ concepts
that were discussed in confidence with Harmony and
contemplated to be introduced as part of the Smart-Pack
ACR product line under both the Distribution Agreement
and the Licensing Agreement.
45.

Manufacturing stainless steel products requires a

tremendous

amount

of

experience,

infrastructure,

specialty fabrication equipment, highly skilled personnel
and know-how that very few manufacturers are willing to
take on due to the extra demands. CTI, with no experience
producing stainless steel products, has become the world
leader in stainless steel bathroom ACR’s almost overnight.
(Harmony has provided stainless steel kitchen compactors
for 30+ years, but has only reported six stainless steel
ACR’s in 12 years.)
46.

CTI could not be filling these orders without

Harmony manufacturing these many thousands of ACRs
for them. On information and belief, Harmony has also

38a

provided a performance and service guarantee on the ACRs
sold by CTI.
47.

Harmony, through its collusion with CTI, robbed

WasteCare of $350,000 - $400,000 in royalties on one deal
alone by sabotaging the $7 million government contract,
and has pilfered hundreds of thousands in other royalty
payments as well.
E. Harmony Sabotages Potential Airport
Deals & Other Willing Customers
48.

Before the Licensing Agreement period (and even

before the Distribution Agreement with Harmony),
WasteCare

worked

International

with

Airport

Hartsfield-Jackson

to

have

ACRs

Atlanta

implemented

throughout the airport, which was the first ACR sale to the
airport industry. WasteCare also sold to the McCarran
International Airport in Las Vegas during the Distribution
Agreement period.
49.

During the Licensing Agreement period, in late

2015, another large airport made an inquiry to WasteCare
about purchasing 100 ACRs. This should have been an easy

39a

deal to close, and WasteCare referred this inquiry to
Harmony. Once again, Harmony found a way to
intentionally botch or decline the opportunity in favor of
secretive revenue channels that Harmony felt would not
only allow them to avoid lots of ordinary ‘cost of sales’
expenses but would also allow them to avoid royalties. Big
Belly got the $750,000 deal as single source provider.
50.

On many other occasions there have been other

Airports (as well as many other customers across all
industries) pleading with Harmony for assistance in their
efforts to pursue ACR purchases and evaluations, and
Harmony either found ways to either squander the
business away and/or divert it through alliances with
others in which sales were never reported to WasteCare.
51.

Harmony should have done many rollouts of

hundreds and even thousands of ACRs by now based on the
market demand and awareness of quick paybacks, yet they
have never reported even a fraction of a rollout. Dating
back to the early years of the Licensing Agreement and
thereafter, Harmony has communicated to WasteCare both

40a

verbally and in emails that there was no demand for the
ACRs, even though Harmony knew this was not true and
that Big Belly was selling several thousand per year. These
lies were meant to justify the lack of sales and deceive
WasteCare about what was really happening in the
market.
F. Misrepresentations Regarding Lack of
Sales and Bad Faith Attempts to Deny
Royalties
52.

Harmony

repeatedly

ignored

WasteCare’s

questions, emails, and letters regarding ACR sales.
Harmony, in a 2016 email, claimed the lack of sales was
due to WasteCare’s design. This made no sense because it
is clear that since the Distribution Agreement, as well as
the Licensing Agreement, Harmony has always been solely
responsible for all ACR design and engineering (stated in
section 2.1 of the Licensing Agreement).
53.

Harmony also has denied royalties on the wireless

monitoring systems and other options and assemblies that
were incorporated with new ACR’s being sold. The only
exception to 3.1(b) was for incidentals that Harmony said

41a

would be hard to track for accounting such as parts for
service and warranty and those consumable items such as
bag liners sold both with the initial sale and in the
aftermarket.
54.

This ‘incidentals’ sentence was added as Section

3.1(b)(1) which was only to be applied after first taking
3.1(b) into consideration. This was only added because
Harmony said it would be helpful for their accounting if
they did not have to track the small petty incidentals that
did not amount to much money anyway. In spite of the
meaning regarding these incidentals being obvious upon
entering into the agreement, and even though it was clear
that

the

wireless

monitoring

systems

would

be

incorporated into initial ACR sales, Harmony stated in a
March 2016 email that it was denying royalties on these
systems because the systems’ data package or ‘air waves’
are not physically attached to the ACRs. The real reason
for the royalty denials is Harmony knows that all those
Wireless Monitoring Systems sold for the Big Belly

42a

machines has contributed to the sale of tens of thousands
of machines.
55.

Section 3.1(b) of the Licensing Agreement states

royalties are based on any new ACRs that “Harmony has
sold or has caused to be sold to any entity” in a
chronological

aggregate

of

15,000

units.

This

is

WasteCare’s core protection that WasteCare relied upon,
as Harmony is fully aware. This means any Harmony
activities associated with ACR sales are royalty bearing
(except the insignificant incidentals per the incidentals
sentence), including situations where Harmony provides
compaction assemblies or other partial assemblies to a
third party who then sells a complete ACR.
56.

Section 3.1(b) is the controlling provision for

royalties under the Licensing Agreement. The way the
Licensing Agreement is constructed, before Harmony can
consider whether an option or accessory bears royalties
under 3.1(b)(1), it must first apply 3.1(b) to establish
whether Harmony directly sold a new ACR or indirectly
caused or contributed to a new ACR sale by a third party.

43a

Since Harmony has contributed to the ACR sales of others
such as CTI and Big Belly by providing various full and
partial assemblies and wireless monitoring systems,
Harmony knew it was supposed to report those sales as
bearing royalties.
G. Harmony’s Lack of Reporting
57.

Harmony has not lived up to its reporting

commitments under the Licensing Agreement. Section 3.2
of the Licensing Agreement states that Harmony is to
provide WasteCare a monthly report of its business
activities that are pertinent to an accounting of royalty
payments. This includes new ACR sales Harmony has
either made directly or has caused to be made indirectly by
any third-party entity. This also includes complete or
partial assemblies sold to third parties (for new ACR sales)
with records of each invoice related to all such Sales
involving ACR activities consistent with the royalty
considerations under 3.1(b).
58.

This core protection for WasteCare states ACRs

which “Harmony has sold or has caused to be sold to any

44a

entity,” and references new ACRs sold by either Harmony
or a third party in which Harmony has contributed in any
way involving a chronological aggregate of 15,000 ACR’s.
This reporting is to include but is not limited to the date,
name, and location of each purchaser, the sale amount, and
the serial number assigned to each unit on each invoice.
Harmony also is to provide WasteCare a quarterly report
with a “cumulative chronological serial number listing” of
all units sold or rented under each invoice.
59.

There have been large discrepancies in the monthly

reports compared to the quarterly reports. WasteCare
pointed this out to Harmony and asked for clarification of
the total chronological number of ACRs Harmony was
claiming from the beginning of the Licensing Agreement
through the second quarter of 2016. Harmony refused to
update any data, and responded by saying the royalty
reporting was “just a form” and insignificant.
60.

In an email in January 2014, Harmony’s President

suggested to WasteCare that it was no longer necessary to
send the reports since they were only selling five or six

45a

ACRs per quarter. Prior to that, from around 2012 to 2014,
WasteCare had offered to take the product line back on
several different occasions with no penalty to Harmony.
WasteCare even offered to pay Harmony a 5 percent
royalty, but Harmony ignored all of those offers.
61.

During the transition to the Licensing Agreement,

Harmony told WasteCare that the ACR business would not
be viable unless it was selling at least 1,000 ACRs per year.
That is why the parties added section 8.1(c) to the
Agreement, which allowed Harmony to exit the business
without penalty by giving six months’ notice to WasteCare.
At the rate Harmony is reporting, there is no way the ACR
product line could be even remotely worthwhile or
profitable. Harmony has not exercised their option to exit
the business because they are secretly selling ACRs
through others and hiding the royalties that are due.
Further, exercising their option would bar Harmony from
the ACR industry for 10 years.
62.

Harmony has never provided reports directly from

its accounting as promised. Instead, Harmony has denied

46a

WasteCare of its right to validate ACR activities through
accounting reconciliation. Harmony has already confirmed
and displayed their unwillingness to cooperate with
generally acceptable audit guidelines. From October 2016
thru July 2017, and after nine months of back and forth
between Harmony and a small law firm who attempted to
make arrangements for conducting an audit, it was very
clear that Harmony’s approach was exercise a delay
strategy of cryptic responses, half-truths, and outright lies
in order to to thwart WasteCare’s ability to undertake a
successful audit.
63.

The only thing Harmony has been willing to provide

is copies of invoices on the original ACR version from before
the Licensing Agreement took effect and just the complete
machines, to the exclusion of all new versions, models,
innovations, and partial assemblies that have contributed
significantly to Harmony’s ACR activities and income.
64.

Harmony has complained repeatedly about the very

simple reporting required by the Licensing Agreement.
Harmony is often late with what little it reports and will

47a

oftentimes change its position to reduce the amount of
royalties paid. Harmony routinely shorts royalties to
WasteCare on what little sales it does report. Harmony
also continues to refuse to pay royalties that WasteCare
pinpointed in 2016 when, pursuant to the Licensing
Agreement, WasteCare requested copies of invoices. Even
on small amounts of sales Harmony has actually reported,
it has disputed a large percentage of options that are still
unpaid, such as the wireless monitoring system and
multiple bin ACRs. In summary, Harmony has engaged in
a systematic, concerted effort to wear down WasteCare
with the hope that WasteCare will eventually ask out of
the Licensing Agreement or just give up.
H. Recap of Harmony’s Fraudulent Scheme to
Undermine the Licensing Agreement and to
Destroy and Steal WasteCare’s Property
65.

Harmony has been deceptive since the beginning of

the

Licensing

Agreement

period.

Harmony

has

intentionally diverted and sabotaged hundreds of ACR
opportunities and sales leads that WasteCare referred to

48a

Harmony. This conduct involves thousands, and possibly
even tens of thousands, of units.
66.

Harmony has secretly pursued other parties such as

Big Belly and CTI to act as its secret ACR sales arm, in
order to supply ACRs and ACR assemblies while avoiding
sales and marketing costs, customer administrative and
training costs, service costs, and most significantly, royalty
costs. With Harmony’s capability and experience, it should
have reached 15,000 aggregate sales years ago. Instead,
from the very beginning of the Licensing Agreement period
Harmony sought to circumvent its royalty obligations,
while also destroying WasteCare’s royalty entitlements
and the Smart-Pack product line.
67.

Harmony has repeatedly lied about the reasons for

its extremely low ACR sales, as well as its knowledge of
and affiliations with Big Belly and CTI. Harmony has
engaged in bad faith attempts to deny WasteCare its
royalties and comply with the Licensing Agreement’s
reporting requirements.

49a

68.

The acts complained of constitute one or more

breaches of Harmony’s obligations under the Licensing
Agreement. This conduct has damaged WasteCare and is
the basis for WasteCare’s prayer for the equitable relief
described below.
COUNT I
(Rescission of the Contract)
69.

WasteCare realleges all prior paragraphs of the

complaint as if set forth fully herein.
70.

Under Illinois law, rescission is an equitable remedy

allowing a party to cancel a contract for, inter alia, a
material breach.
71.

A material breach is a breach of such a nature and

importance that the contract would not have been entered
into without the terms.
72.

Harmony has, and continues to be in, material

breach of the Licensing Agreement.
73.

For example, Section 3.1(b) of the Licensing

Agreement states Harmony will pay WasteCare a royalty
of 5% on all new ACRs that Harmony sold or caused to be

50a

sold in the United States, with a “Minimum Unit Royalty”
of $100 per unit. This means that Harmony’s activities
associated with ACR sales are royalty bearing, except for
insignificant incidentals.
74.

WasteCare relied on this agreement to its detriment,

which Harmony is fully aware of.
75.

Furthermore,

Section

3.2

of

the

Licensing

Agreement states that Harmony must provide WasteCare
a monthly report of its business activities that are
pertinent to an accounting of royalties. The reporting must
include the date, name, and location of each purchaser, the
sale amount, and the serial number assigned to each unit
on each invoice.
76.

WasteCare relied on this reporting to its detriment

as its only protection in the agreement, which Harmony is
fully aware of. However, when WasteCare pressed
Harmony on large discrepancies between the reporting and
quarterly reports, Harmony called the contractual duty to
accurately report insignificant.

51a

77.

To date, Harmony has, and continues to, engage in

bad faith attempts to deny WasteCare its royalties and
comply with the reporting requirements.
78.

Such bad faith dealings constitute a material breach

of the Licensing Agreement because WasteCare would not
have entered into the agreement knowing it would not
receive the benefit of the bargain.
79.

Under Illinois law, when a contract is rescinded,

restitution follows. Restitution measures not the plaintiff’s
losses, but rather the defendant’s gains which are unjust
for it keep. As such, Harmony must return all benefits
conferred to it which are unjust for it to keep—namely,
royalties kept outside the letter and spirit of the Licensing
Agreement.
80.

Therefore, WasteCare is entitled to a ruling that the

contract is rescinded and void ab initio.
COUNT II
(Accounting of Royalties Owed by Harmony to
WasteCare)
81.

WasteCare realleges all prior paragraphs of the

Complaint as if set forth herein.

52a

82.

Harmony

has failed to

provide an accurate

accounting of royalties owed to WasteCare during the
Licensing Agreement period pursuant to section 3.2.
83.

Under Illinois law, to receive an accounting, a party

must plead there is an inadequate remedy at law and that,
inter alia, there is fraud.
84.

Under Illinois law, equity jurisdiction does not hinge

on labels, rather it hinges on allegations of fact set forth in
the complaint. Likewise, the existence of a legal remedy
alone does not preclude equitable jurisdiction. There is no
categorical rule for “adequateness,” instead, it depends on
the circumstances of the case. For instance, even if the
primary rights and relief sought are purely legal, a court of
equity may assume jurisdiction if the methods of the
procedure and the means available to carry its decrees into
execution make the remedies more adequate, complete,
and prompt.
85.

In the instant case, there is an inadequate remedy

at law. Though it is true that this claim could be brought
through a breach of contract, the breach of contract remedy

53a

is inadequate. The standard measure of damages for
breach of contract claims is expectation damages, restoring
the plaintiff to where he would have been but for a breach.
However, here, that position cannot be gauged due to the
lack of reporting and fraudulent activity from Harmony. As
such, the circumstances of this case indicate the breach of
contract remedy is inadequate, and that an Accounting of
Royalties is needed because it is more complete and
prompt.
86.

Additionally, Harmony has been fraudulent in its

execution of the Licensing Agreement. In addition to hiding
Harmony’s activity on other versions, models, partial
assemblies, and the like, Harmony has not reported its
wireless monitoring systems sales for purposes of
determining royalties, nor other optional equipment
provided by Harmony.
87.

Throughout

the

Licensing

Agreement

period,

Harmony has provided incomplete accounting reports that
are often late and contain discrepancies.

54a

88.

Furthermore, Harmony has engaged in intentional

and deceptive conduct in material breach of its contractual
obligations to WasteCare, as detailed in this Complaint’s
factual summary and further described in Count I above.
89.

Therefore, WasteCare requests an order requiring

Harmony to provide a full accounting of royalties owed to
WasteCare pursuant to the terms of the Licensing
Agreement. WasteCare requests that the accounting be in
a form that would allow WasteCare to reconcile the
reported ACR activities against raw materials, work-inprocess, and finished goods and in accordance with
generally accepted guidelines and methods.
COUNT III
(Injunctive Relief Barring Harmony from
Competing for 10 Years)
90.

WasteCare realleges all prior paragraphs of the

Complaint as if set forth herein.
91.

Section 8.2(e) of the Licensing Agreement states that

if the Agreement is terminated pursuant to 8.1(b),
Harmony agrees “not to exercise, directly, or indirectly, any
Exploitation rights in the Territory” for a period of 10

55a

years. The “Territory” is defined as the United States of
America.
92.

As described above, Harmony has violated Licensing

Agreement section 8.1(b) by repeatedly making material
misrepresentations, and by systematically breaching the
Licensing Agreement’s covenants. As such, pursuant to
Licensing

Agreement

section

8.1(b),

the

Licensing

Agreement must be terminated, and Harmony must
refrain from directly or indirectly selling ACRs within the
United States for 10 years.
93.

Therefore, WasteCare requests that this Court

enjoin Harmony from directly or indirectly competing in
the ACR industry in the United States for a period of 10
years.
Dated: [to be inserted at time of filing].
/s/ Archie I. Grubb, II
Archie I. Grubb, II (Georgia Bar No. 314384)
BEASLEY, ALLEN, CROW, METHVIN,
PORTIS & MILES, P.C.
218 Commerce Street
Montgomery, AL 36104
Tel: (334) 269-2343
Fax: (334) 954-7555
Archie.Grubb@BeasleyAllen.com

56a

/s/ James T. Sasser
James T. Sasser (Georgia Bar No. 525510)
Attorney at Law
1678 Montgomery Highway, Suite 104
Birmingham, AL 35216
Tel: (256) 390-1050
Fax: (205) 98502402
jtsasserlaw@gmail.com

57a

